      Department of Homeland Security




            DHS’ Intelligence Community Members’ 

                  Continuity of Operations and 

                     Intelligence Readiness 





OIG-12-87                                        June 2012

                                                             Office of Inspector General

                                                             u.s. Department of Homeland Security
                                                             Washington, DC 20528



                                                             Homeland
                                                             Security
                                   June 19, 2012



                                          Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses ofDHS' Intelligence Community
members' Continuity of Operations programs. It is based on interviews with employees
and officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Acting Inspector General
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................6


           Office of Intelligence and Analysis .........................................................................7

           COOP Program Evolution .......................................................................................8

           Implementing Federal Continuity Directive-1 Requirements................................11

           Recommendations..................................................................................................20

           Management Comments and OIG Analysis ..........................................................21


           United States Coast Guard Intelligence and Criminal Investigations.…………...23

           COOP Program Evolution .....................................................................................25

           Implementing Federal Continuity Directive-1 Requirements................................26

           Recommendations..................................................................................................32

           Management Comments and OIG Analysis ..........................................................32


Appendices
     Appendix A:          Purpose, Scope, and Methodology........................................................35

     Appendix B:          Recommendations .................................................................................36

     Appendix C:          Management Comments to the Draft Report ........................................37

     Appendix D:          Major Contributors to This Report........................................................40

     Appendix E:          Report Distribution ................................................................................41


Abbreviations
     COOP                  Continuity of Operations

     CG-2                  Intelligence and Criminal Investigations

     DHS                   Department of Homeland Security

     ERG                   Emergency Relocation Group

     FCD                   Federal Continuity Directive

     FEMA                  Federal Emergency Management Agency

     HSPD                  Homeland Security Presidential Directive

     I&A                   Office of Intelligence and Analysis

     IC                    Intelligence Community

     NSPD                  National Security Presidential Directive

     OIG                   Office of Inspector General

     USCG                  U.S. Coast Guard

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                      The Department of Homeland Security’s (DHS) Office of
                      Intelligence and Analysis (I&A) and the United States Coast
                      Guard’s (USCG) Office of Intelligence and Criminal
                      Investigations share the common function of performing as DHS
                      departmental elements and Intelligence Community members.

                      We assessed the DHS Intelligence Community members’
                      Continuity of Operations programs as part of our Fiscal Year 2011
                      Annual Performance Plan. Specifically, we focused on the
                      program’s history, evolution, activities, and coordination and
                      collaboration efforts. Our objectives were to ensure Continuity of
                      Operations definition alignment with the National Continuity
                      Policy; to ensure that plans adequately address requirements set
                      forth in the National Continuity Policy; to determine whether
                      Continuity of Operations training and exercises test capabilities
                      and identify potential areas of improvement; and to determine
                      whether new planning efforts incorporate lessons learned and
                      corrective action resulting from prior exercises or actual events.

                      The plans of both I&A and USCG address the required areas that
                      define a viable Continuity of Operations plan and are consistent
                      with national directives and DHS guidance. Senior leadership for
                      both components have effectively assessed their programs and are
                      confident that Continuity of Operations functions will be
                      performed and sustained during emergency situations. However,
                      both the Office of Intelligence and Analysis and USCG
                      Intelligence and Criminal Investigations Continuity of Operations
                      plans can be strengthened by defining roles and responsibilities
                      better, adding more realistic exercise scenarios, and updating plans
                      to reflect current operational capabilities.

                      We are making eight recommendations to help DHS Intelligence
                      Community members strengthen their Continuity of Operations
                      plans and programs and to improve oversight. The Department
                      concurred with seven recommendations and did not concur with
                      one.



     DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                             Page 1
Background
                     The terrorist attacks of September 11, 2001, and hurricanes Katrina
                     and Rita in 2005 are examples of mass destruction and chaos
                     caused by manmade and natural disasters. In November 2009,
                     shootings at Fort Hood in Killeen, Texas, exemplified the ongoing
                     threat of radicalized domestic extremism, further evidenced by the
                     December 2009 Christmas Day bombing attempt on board
                     Northwest Flight 253. The death of Osama Bin Laden in May
                     2011 and other recent events have not curtailed global terrorist
                     activities against the United States or its foreign interests. The
                     threat of terrorism and natural events beyond our control are two
                     primary reasons why the Federal Government relies on Continuity
                     of Operations (COOP) plans. COOP plans enable a more rapid
                     and effective response to and recovery from an emergency,
                     regardless of cause, size, or complexity.

                     DHS has five missions:

                          •   Preventing terrorism and enhancing security
                          •   Securing and managing our borders
                          •   Enforcing and administering our immigration laws
                          •   Safeguarding and securing cyberspace
                          •   Ensuring resilience to disasters

                     To accomplish its missions, DHS must perform operations
                     efficiently and effectively, with minimal disruption of essential
                     functions, especially during any type of disaster or emergency.
                     The severity and consequences of a disaster or emergency are
                     difficult to predict, but effective contingency planning can
                     minimize the effect on DHS personnel, resources, and operations.

                     National Continuity Policy

                     The U.S. Government’s National Continuity Policy, as outlined in
                     the May 7, 2007, National Security Presidential Directive 51
                     (NSPD-51)/Homeland Security Presidential Directive (HSPD-20),
                     establishes as national policy the requirement for each department
                     and agency of the executive branch to maintain a comprehensive
                     and effective continuity capability composed of Continuity of
                     Government and COOP programs. These programs are to ensure
                     the preservation of our form of government under the Constitution,
                     including the functioning of the three separate branches, and the
                     continuing performance of National Essential Functions under all



    DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                            Page 2
                          conditions. National Essential Functions, as defined in NSPD­
                          51/HSPD-20, represent the overarching responsibilities of the
                          Federal Government to lead and sustain the Nation during a
                          catastrophic emergency and will be the primary focus of the
                          Federal Government’s leadership during and in the aftermath of an
                          emergency.

                          Continuity of Government refers to a coordinated effort within the
                          executive branch to ensure that National Essential Functions
                          continue to be performed during a catastrophic disaster or
                          emergency. COOP refers to an effort within individual executive
                          departments and agencies to ensure that Primary Mission-Essential
                          Functions continue to be performed during a wide range of
                          disasters or emergencies. 1 When a disaster, emergency, or
                          significant event occurs, COOP procedures may be initiated. Upon
                          COOP activation, mission-essential personnel will receive
                          information pertaining to the threat condition, whether to report to
                          an alternate site, and if so, the reporting time. Once personnel are
                          present at the alternate site, they will continue to perform their
                          organization’s Primary Mission-Essential Functions.

                          National Essential Functions

                          National Essential Functions must be maintained at all times, while
                          Primary Mission-Essential Functions are unique to each department
                          and agency. There are eight National Essential Functions:

                               •	 Ensuring the continued functioning of the Federal
                                  Government under the Constitution, including the
                                  functioning of the three separate branches of government;

                               •	 Providing leadership visible to the Nation and the world
                                  and maintaining the trust and confidence of the American
                                  people;

                               •	 Defending the Constitution of the United States against all
                                  enemies, and preventing or interdicting attacks against the
                                  United States or its people, property, or interests;


1
 Primary Mission-Essential Functions, as defined in NSPD-51/HSPD-20, are those department and agency
Mission-Essential Functions that must be performed to support or implement the performance of the
National Essential Functions before, during, and in the aftermath of an emergency. They are required to be
performed continuously during an event or resumed within 12 hours of an event, and to be maintained for
up to 30 days after an event or until the resumption of normal operations.



        DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                                  Page 3
                               •	 Maintaining and fostering effective relationships with
                                  foreign nations;

                               •	 Protecting against threats to the homeland and bringing to
                                  justice perpetrators of crimes or attacks against the United
                                  States or its people, property, or interests;

                               •	 Providing rapid and effective response to and recovery
                                  from the domestic consequences of an attack or other
                                  incident;

                               •	 Protecting and stabilizing the Nation’s economy and
                                  ensuring public confidence in its financial systems; and

                               •	 Providing for critical Federal Government services that
                                  address the national health, safety, and welfare needs of the
                                  United States. 2

                           Resources required to perform National Essential Functions
                           include trained personnel, equipment, and consumable office
                           supplies. 3 The proper identification and prioritization of these
                           functions are critical for creating a viable COOP plan. When
                           departments and agencies identify too many functions as essential,
                           resources may be allocated to sustain nonessential functions,
                           impeding work on essential tasks.

                           National Continuity Policy Implementation Plan and Federal
                           Continuity Directive

                           In August 2007, the President approved the National Continuity
                           Policy Implementation Plan. This plan augments the National
                           Continuity Policy and provides guidance to executive branch
                           departments and agencies on identifying and executing their
                           Primary Mission-Essential Functions. To provide operational
                           guidance in implementing this policy, the Federal Emergency
                           Management Agency (FEMA) within DHS coordinated with its
                           interagency partners and developed the Federal Continuity
                           Directive-1 (FCD-1), Federal Executive Branch National
                           Continuity Program Requirements (February 2008). FCD-1
                           provides direction to executive branch departments and agencies

2
 NSPD-51/HSPD-20 § (5)(a)-(h).

3
 Essential Functions include all activities and resources necessary to support and maintain National 

Essential Functions and department- and agency-specific Primary Mission-Essential Functions and

Mission-Essential Functions.




        DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                                   Page 4
                           on identifying and implementing the requirements to maintain a
                           COOP capability. 4

                           FCD-1 states that a viable COOP program will include the
                           following 10 elements:

                                •   Essential functions
                                •   Alternate operating facilities
                                •   Delegations of authority
                                •   Orders of succession
                                •   Devolution planning
                                •   Vital records management
                                •   Interoperable communications
                                •   Test, training, exercise, and evaluation program
                                •   Human resources and capital
                                •   Reconstitution

                           At the request of the Assistant Inspectors General for Inspections
                           Working Group of the Intelligence Community (IC) Inspectors
                           General Forum, all IC Offices of Inspectors General (OIGs) agreed
                           to conduct evaluations of COOP and Intelligence Readiness
                           programs for their respective departments and agencies. These
                           evaluations were to assess COOP programs and capabilities for
                           elements in each organization that are funded by the National
                           Intelligence Program. 5

                           The IC members represent 16 different Federal Government
                           departments and agencies. DHS has two IC members: the I&A
                           and the U.S. Coast Guard Intelligence and Criminal Investigations
                           (USCG CG-2). DHS IC members are the conduit between the IC
                           and other DHS components. I&A and USCG CG-2 are
                           responsible for ensuring the integration and continuity of
                           intelligence to and from the IC during regular operational periods
                           and national disasters and emergencies. I&A and USCG CG-2
                           have the unique ability to function as both departmental
                           components and IC members in times of national disasters and
                           emergencies.


4
  FCD-1’s provisions apply to the executive departments listed in 5 U.S.C. § 101, including DHS;

independent establishments as defined by 5 U.S.C. § 104(1); government corporations as defined in

5 U.S.C. § 103(1); and the U.S. Postal Service. Throughout this report, we refer to these entities as 

“departments and agencies.”

5
  The National Intelligence Program funds intelligence activities in several Federal departments and

agencies. Detailed funding requests for intelligence activities are classified.




         DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                                    Page 5
                      We reviewed COOP and Intelligence Readiness programs for I&A
                      and USCG CG-2 to determine the following:

                           •	 Whether the COOP definitions used align with the National
                              Continuity Policy;

                           •	 The extent to which the IA and USCG CG-2 COOP plans
                              address the requirements set forth in the National
                              Continuity Policy;

                           •	 Whether COOP training and exercises test capabilities and
                              identify potential areas of improvement; and

                           •	 Whether new planning efforts incorporate lessons learned
                              and corrective action resulting from prior exercises or
                              actual events.

                      Our report addresses DHS IC member efforts and capabilities, not
                      the Department’s overall COOP plan and program. However, we
                      reviewed DHS’ and USCG’s plans to ensure that I&A and USCG
                      CG-2 plans are included in the Department and USCG plans.


Results of Review
     I&A and USCG CG-2 have provided effective oversight of their respective COOP
     programs. Both have reviewed and confirmed component-specific Essential
     Functions, reviewed office-level COOP plans, and prepared multiyear strategies
     and management plans to guide each program. Neither I&A nor USCG CG-2
     distinguishes between Primary Mission-Essential Functions and Mission-Essential
     Functions; they consider all critical mission functions to be Essential Functions.
     Senior leadership of both components is engaged in building viable COOP plans.
     I&A and USCG CG-2 COOP program officials say that their COOP plans allow
     both components to maintain a successful COOP posture and execute their
     Essential Functions during a significant national event. Continuity planning is
     consistent because both components’ policies define authorities and responsibilities
     to reflect current national directives and guidance. I&A and USCG CG-2 COOP
     training and exercises are sufficient to prepare and assess component abilities to
     provide essential services during a significant emergency. However, improvements
     can be made to better define roles and responsibilities, enhance exercises to
     simulate real-world events, and update plans to reflect current operational
     capabilities.




     DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                             Page 6
Both plans are centric to operations and sustainment of the Department and not
the IC. There are no interagency or IC-level Mission-Essential Functions in
I&A’s plan, but USCG CG-2 has one plan that supports all essential requirements
tasked to USCG. Both I&A and USCG CG-2 receive and transmit information to
other IC departments and agencies that assist in ensuring that DHS Mission-
Essential Functions are met. Figure 1 lists the national, DHS, I&A, and USCG
CG-2 Essential Functions.
Figure 1: Essential Functions: National, DHS, I&A, and USCG CG-2




Source: NSPD-51/HSPD-20, DHS, I&A, and USCG CG-2.



Office of Intelligence and Analysis
        I&A was created in 2003 and is responsible for ensuring that timely and
        actionable homeland security information and intelligence is provided to
        national leadership, as well as State, tribal, local, and private sector
        stakeholders. I&A has 15 divisions organized under three Deputy Under



DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 7
        Secretaries and one directorate, as reflected in figure 2. I&A defines
        COOP as the ability of the office and its leadership to continue performing
        I&A Essential Functions in the event that its headquarters is inaccessible
        or uninhabitable. I&A must establish an operational capability and
        perform Essential Functions within 12 hours of COOP activation and
        sustain those functions up to 30 days or until resumption of normal
        operations.

Figure 2: I&A Organizational Structure




   Source: I&A.



COOP Program Evolution
        From 2003 to 2007, I&A’s COOP program functioned more in theory than
        in practice. This is attributed to unclear guidance from senior leaders and
        the fact that designated COOP managers did not completely understand
        how COOP programs are developed and maintained.



DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 8
                 In 2007, I&A hired a COOP staff who are trained to develop, maintain,
                 and execute its COOP program within established directives and policies.
                 As a result, I&A has identified and defined Essential Functions,
                 participated in government-wide and internal COOP exercises, and
                 conducted periodic informational meetings to identify its level of COOP
                 preparedness. I&A officials said that they maintain a level of COOP
                 capability that would sustain the performance of Essential Functions.

                 I&A has identified an Emergency Relocation Group (ERG) to ensure the
                 continuation of I&A’s Essential Functions in the event of a COOP
                 activation and execution. When I&A operations are disrupted, the I&A
                 Under Secretary or a designated successor may activate its COOP plan.
                 Upon notification of a COOP situation, the ERG will relocate to the
                 designated alternate operations facility site to continue I&A’s Essential
                 Functions.

                 I&A’s COOP plan also includes ERG intelligence elements from other
                 DHS components. In 2008, DHS’ Chief Intelligence Officer established
                 the Intelligence Enterprise Continuity Working Group. The working
                 group is responsible for developing plans and procedures to ensure that
                 DHS intelligence elements are able to operate cohesively and effectively
                 to respond to all-hazard emergencies. I&A collaborates with the DHS
                 intelligence element to provide intelligence support to national and
                 homeland security leaders, while supporting Federal, State, local, territorial,
                 tribal, and private sector partners and customers. 6 In addition to I&A and
                 USCG CG-2, the DHS intelligence element consists of the following:

                     •	 U.S. Customs and Border Protection’s Office of Intelligence and
                        Operations Coordination
                     •	 U.S. Immigration and Customs Enforcement’s Office of Intelligence
                     •	 Transportation Security Administration’s Office of Intelligence
                        and Analysis
                     •	 U.S. Citizenship and Immigration Services’ Office of Fraud
                        Detection & National Security
                     •	 United States Secret Service’s Office of Strategic Intelligence and
                        Information

                 In I&A, 8 of the 15 divisions have individual Incident Management plans
                 that align with the overall I&A headquarters COOP plan. 7 The Homeland
                 Counterterrorism, Current Intelligence, and Cyber, Infrastructure, and
                 Science Divisions are relatively new and are drafting Incident

6
 U.S. Department of Homeland Security Intelligence Enterprise Continuity Draft Plan, June 2011.
7
 Incident Management plans detail how an organization will respond to emergency situations during
Continuity of Operations events.



        DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                                Page 9
                  Management plans as of November 2011. The State and Local Program
                  Office Incident Management plan covers its two divisions, and the
                  Program Performance and Management and Strategy, Plans, and Policy
                  Divisions do not have any Essential Functions or ERG personnel.

                           Support and Planning Efforts

                           COOP is a priority for I&A leadership and has consistent senior
                           and midlevel leadership support. I&A has a 2010 COOP plan that
                           addresses all FCD-1 elements, although the sections concerning
                           devolution and vital records are not fully developed. COOP
                           program officials believe that an I&A policy should be developed
                           to direct each internal I&A office and division to develop and
                           maintain COOP plans. The policy should also provide
                           documentation of nonoperational program requirements, to allow
                           the updated I&A COOP plan to focus on operational requirements
                           and ensure that continuity applies to all I&A personnel and not just
                           ERG members.

                           COOP planning occurs at all I&A levels. The Continuity and
                           Exercise Programs Branch manages I&A’s COOP program.
                           Program managers collaborate with I&A management to build
                           COOP awareness and support.

                           I&A COOP program managers are former FEMA employees who
                           are trained in all aspects of continuity operations. Contingency
                           Plans and Exercise Branch personnel are capable of developing,
                           executing, and maintaining a COOP program. Primary duties for
                           I&A COOP program managers are building and sustaining COOP
                           capabilities. Maintaining division-level COOP responsibilities is
                           an additional duty. All division-level managers possess functional
                           COOP program knowledge, with some possessing expert
                           knowledge in maintaining a program. As a result, I&A officials
                           said they have improved the accountability, oversight, and
                           visibility of their COOP program.

                           Working Group Collaboration

                           I&A participates in several DHS and Office of Director of National
                           Intelligence COOP working groups. 8 The Office of Director of
                           National Intelligence working groups include the National

8
 The Director of National Intelligence serves as the head of the IC, overseeing and directing National
Intelligence Program implementation and acting as the principal advisor to the President, the National
Security Council, and the Homeland Security Council for intelligence matters related to national security.



        DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                                  Page 10
                 Intelligence Emergency Management Activity, the National
                 Partners Advisory Group, and the Mission Technical Advisory
                 Committee. The National Intelligence Emergency Management
                 Activity focuses on Continuity of Government, while the National
                 Partners Advisory Group focuses on the critical IC and non-IC
                 support departments and agencies. The Mission Assurance
                 Technology Committee focuses on information technology.

                 DHS-led COOP working groups consist of the Interagency
                 Continuity Test, Training, and Exercise Working Group, which is a
                 FEMA-led forum that coordinates executive branch continuity
                 issues, and the Department of Homeland Security Working Group,
                 which is led by DHS’ Office of Operations Coordination and
                 Planning and coordinates all DHS continuity issues. I&A also
                 participates in the Office of Intelligence and Analysis Continuity
                 Working Group, which coordinates I&A continuity issues, and the
                 DHS Intelligence Enterprise Continuity Working Group, which
                 coordinates I&A Intelligence Elements continuity issues.

                 According to I&A COOP program and division managers,
                 participation in these working groups and the exchange of ideas
                 and information help I&A form a concerted and cohesive COOP
                 plan that is in accordance with Federal regulations and Federal and
                 Department policies.


Implementing Federal Continuity Directive-1 Requirements
                 Essential Functions

                 FCD-1 requires departments and agencies to identify and prioritize
                 their organization’s Essential Functions as a basis for COOP
                 planning, and to identify staffing, resource requirements, and other
                 supporting activities necessary to perform such functions. By
                 identifying and prioritizing Essential Functions, a department or
                 agency establishes planning parameters that drive its efforts in all
                 other planning and preparedness areas. Mission-Essential
                 Functions are a broad set of Essential Functions that include not
                 only an agency’s Primary Mission-Essential Functions, but also all
                 other functions that must be continued throughout or resumed after
                 a disruption of normal activities but do not rise to the level of
                 Primary Mission-Essential Functions.




DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 11
                          I&A’s COOP plan prioritizes Essential Functions based on their
                          criticality or time sensitivity according to likely COOP triggers and
                          scenarios. I&A officials periodically review Essential Functions to
                          ensure that mission continuity is met under all conditions. In 2010,
                          I&A reviewed its Essential Functions and determined that they
                          were adequate for I&A to continue its mission. That review
                          included analyzing, prioritizing, and identifying interdependencies
                          and required resources. In July 2012, I&A, along with the other
                          DHS components, will be reviewing and assessing their Essential
                          Functions to better enable the Department to perform mission-
                          critical functions during and following a real-world emergency.

                          The eight divisions that have COOP plans each have Essential
                          Functions listed in their plan. However, the different division
                          Essential Functions are not listed in the overall I&A COOP plan.
                          Should senior leadership need to determine a specific division
                          function, they would have to review each plan, potentially losing
                          critical time during a COOP event.

                          Alternate Operating Facilities

                          FCD-1 requires department and agency COOP plans to identify
                          and prepare alternate operating facilities where staff can perform
                          their Essential Functions. The alternate operations facility must be
                          functional within 12 hours of COOP activation and sustainable for
                          at least 30 days. These facilities should be located away from
                          vulnerable areas and provide support, infrastructure, systems, and
                          security for the relocated personnel.

                          Since 2003, I&A has used the Bluemont Emergency Relocation
                          Site as its alternate operating facility. The configuration of the
                          Bluemont facility meets I&A COOP activities requirements and
                          complies with FCD-1 requirements. I&A ERG members and
                          senior leadership report to different buildings on the Bluemont
                          Emergency Relocation Site. Due to the separation of senior
                          leadership and the ERG, communication was not always timely.
                          During the 2011 Eagle Horizon Exercise, I&A addressed the
                          communication issue with technology that allowed senior
                          leadership direct communication with ERG members. 9 Personnel
                          unable to reach the Bluemont facility can telework to continue
                          I&A Essential Functions. However, as the majority of I&A


9
 The Eagle Horizon Exercise is an annual, integrated continuity exercise for all Federal departments and
agencies, mandated by NSPD-51/HSPD-20 and the National Continuity Policy Implementation Plan.



        DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                                 Page 12
                 Essential Functions depend on sensitive or classified information,
                 telework is not feasible for most personnel.

                 Most I&A division officials said that the Bluemont facility has
                 enough resources to perform their Essential Functions. During a
                 site visit to the Bluemont facility in June 2011, we determined that
                 the size and configuration of both buildings that I&A occupies can
                 accommodate 100 percent of the emergency personnel identified in
                 I&A’s COOP plan.

                 Orders of Succession

                 FCD-1 requires departments and agencies to establish, promulgate,
                 and maintain orders of succession to key positions. Orders should
                 be of sufficient depth to ensure that the agency can manage and
                 direct its essential functions and operations while remaining a
                 viable part of the Federal Government throughout any emergency.

                 I&A’s plan defines the order of succession of the Under Secretary,
                 I&A Chief Intelligence Officer, and other I&A offices critical to
                 ensuring leadership during an emergency. I&A Division succession
                 orders are detailed in each division’s COOP implementation plan
                 and maintained as separate documents. Each division is
                 responsible for maintaining orders of succession for the office of
                 Division Director.

                 Delegations of Authority

                 FCD-1 requires departments and agencies to predelegate
                 authorities for making policy determinations and other decisions to
                 ensure rapid response to any disaster or emergency requiring
                 COOP plan activation.

                 I&A’s COOP plan includes predelegation of authorities for making
                 policy determinations and decisions, at headquarters and other
                 organizational locations, that complies with FCD-1 requirements.
                 The plan states that assumption of delegated authorities will occur
                 when communications between I&A staff and primary office
                 holders are severed for more than 2 hours. Authorities automatically
                 transfer to the most senior available successor identified, and relief
                 occurs when communication with the primary office holder is
                 reestablished or a new authority is appointed.

                 The plan’s delegations of authority and orders of succession are
                 current and reflect changes in senior I&A leadership and I&A


DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 13
                 organizational structure occurring in the past 2 years. According
                 to I&A COOP program officials, personnel who could be
                 delegated authorities in an emergency or be designated successors
                 are trained or briefed on their roles. Each division’s COOP plan
                 contains delegations of authority and orders of succession that
                 comply with FCD-1.

                 Devolution Planning

                 FCD-1 requires that departments and agencies conduct devolution
                 planning to identify how they will continue Essential Functions
                 during increased threat situations or in the aftermath of an
                 emergency or catastrophic disaster. Devolution planning refers to
                 the preparation necessary to transfer statutory authority and
                 responsibilities for Essential Functions of a department or agency
                 to another organizational element, such as a field office, if an
                 organization’s alternate operating facility or emergency relocation
                 personnel are unavailable or incapacitated.

                 As of November 2011, I&A had identified a devolution site but
                 had not developed a feasible devolution plan to ensure that its
                 Essential Functions would be continued if the I&A headquarters or
                 the alternate operating facility is unavailable.

                 Vital Records Management

                 FCD-1 requires departments and agencies to identify, protect, and
                 make readily available vital records, databases, and hard copy
                 documents to support Essential Functions during COOP disasters
                 and emergencies. There are two types of vital records:

                      •	 Emergency Operating Records: Records and databases are
                         essential to the functioning of or reconstituting of an
                         agency during and after a continuity event. Emergency
                         plans and directives; orders of succession; delegations of
                         authority; staffing assignments; and related records of a
                         policy or procedural nature that provide staff with guidance
                         and information resources necessary for conducting
                         operations during an emergency situation, and for resuming
                         formal operations at its conclusion.

                      •	 Legal and Financial Records: Records that are critical to
                         carrying out an organization’s essential legal and financial
                         functions and activities, and that protect the legal and



DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 14
                                  financial rights of individuals directly affected by its
                                  activities.

                         The I&A COOP plan describes the need for a vital records
                         program to support COOP operations, but the plan does not specify
                         which records should be included. I&A program managers said
                         that some vital records are paper-based and some are stored
                         electronically at the permanent work center and alternate operating
                         facility. However, the plan does not identify where vital records
                         are stored; whether the records are paper-based, electronic, or both;
                         or when the records should be updated.

                         Interoperable Communications

                         According to FCD-1, departments and agencies must establish
                         interoperable communications that provide the capability to perform
                         Essential Functions until normal operations can be resumed.

                         In 2007, I&A had redundant systems only for its unclassified and
                         SECRET networks. In July 2011, I&A conducted a successful test
                         of the TOP SECRET network system. This was a major
                         accomplishment, as the test demonstrated redundant communication
                         capability with the IC and DHS components. Communications and
                         databases are tested and updated regularly with software and
                         changes requested by COOP program managers or division COOP
                         coordinators.

                         I&A has established interoperable and redundant communications,
                         and systems are available to support communication with
                         employees, Department leadership, and other elements and
                         locations during an emergency. I&A officials said that I&A
                         provides multiple communication modes capable of transmitting,
                         receiving, and coordinating classified information at its alternate
                         operating facility. This communication capability includes the use
                         of the Joint Worldwide Intelligence Communications System and
                         secure telephones and fax machines. 10 I&A’s Information
                         Technology Division is charged with ensuring continuity of
                         communications at its primary workplace and the alternate
                         operating facility. At the alternate operating facility, I&A has a
                         full-time site coordinator and staff to ensure that communications


10
  The Joint Worldwide Intelligence Communications System is designed to meet the requirements for
secure TOP SECRET/Sensitive Compartmented Information multimedia intelligence communications
worldwide.



        DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                                Page 15
                           are reliable and updated with new databases or programs to support
                           mission requirements.

                           I&A is able to receive, coordinate, and deliver information at all
                           security and classification levels. All I&A divisions have access to
                           all files and databases that are needed to continue Essential
                           Functions.

                           To coordinate with personnel during an emergency, I&A uses the
                           Government Emergency Telecommunications Service and the
                           Wireless Priority Service emergency telephone and wireless
                           services. All I&A ERG personnel have government-issued cellular
                           telephones.

                           Test, Training, Exercise, and Program Evaluation

                           FCD-1 requires that departments and agencies assess, demonstrate,
                           and improve their ability to execute COOP plans and programs
                           through testing, training, and an exercise program.

                           I&A has participated in several internal and government-wide
                           COOP exercises, and has developed a test, training, and exercise
                           program. The program validates, identifies issues for subsequent
                           correction, and specifies aspects of COOP capabilities, procedures,
                           systems, and facilities used in response to emergencies.

                           I&A COOP officials said that COOP procedure and system tests
                           have occurred during national COOP exercises and in association
                           with events such as the 2009 Presidential inauguration, the 2009
                           State of the Union Address, and the 2011 Eagle Horizon Exercise.
                           I&A is starting to use more tabletop exercises to provide additional
                           participants with opportunities to work through various scenarios
                           and the COOP process. 11 COOP program managers encourage all
                           division-level COOP coordinators to conduct tabletop exercises to
                           foster a better understanding of their COOP procedures and
                           processes.

                           I&A’s COOP program manager explained that I&A uses the
                           automated Emergency Notification System to notify essential
                           personnel of an emergency. The notification system will inform
                           personnel of the event, the COOP level, and where and when to

11
  A tabletop exercise is a discussion guided by a facilitator(s) that simulates an emergency situation in an
informal environment. The focus of the exercise is on training and familiarization with roles, procedures,
and responsibilities.



         DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                                   Page 16
                          report. Testing consists of calling or sending an email to all
                          essential employees and ensuring that they received the message.
                          COOP program officials said the system is tested regularly to
                          ensure that contact information is correct. I&A also uses a “phone
                          tree” system—a system of successive telephone calls that start and
                          end with a specified person—as a backup procedure to inform
                          personnel of COOP situations.

                          As of November 2011, National-Level Exercises and internal
                          tabletop exercises were scripted, with information communicated
                          in advance. COOP program officials and division-level
                          coordinators have weeks to plan and ensure that information is
                          understood. For example, the 2011 Eagle Horizon Exercise
                          provided predetermined scenarios and timelines for the event.
                          Scripted exercises are useful in ensuring that personnel know the
                          notification process, where to be, and how to access their systems
                          to continue performing Essential Functions. However, the 2011
                          Eagle Horizon Exercise tested the I&A notification system and
                          how personnel deployed, but did not test the COOP process to
                          react to a real emergency.

                          The exercise was conducted as a tabletop exercise, with limited
                          COOP activities for I&A divisions, and provided no opportunity
                          for a “hot wash” or After Action Report to determine the success
                          of the exercise.” 12 Division-level coordinators interviewed said
                          that no-notice exercises would be more practical in gauging how
                          the COOP program functions. They also said that exercises should
                          always be evaluated.

                          I&A has ensured that its personnel are trained to implement COOP
                          plans and carry out Essential Functions in a COOP situation. All
                          division coordinators we interviewed said that they had completed
                          the mandatory FEMA COOP training. Three division coordinators
                          said that more training could enhance their knowledge of COOP
                          and that they would be interested in attending additional training.

                          I&A leadership requires all I&A personnel to complete the online
                          FEMA COOP and emergency preparedness training through the
                          DHS Intranet DHScovery website. This system informs COOP
                          officials when I&A personnel have taken the basic-level COOP


12
  A hot wash normally includes all parties who participated in an exercise or response activities. These
events are used to create an After Action Report to discuss and evaluate performance and areas requiring
remediation.



        DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                                 Page 17
                          orientation. Upon completion of the COOP orientation course, all
                          I&A personnel should have a basic knowledge of COOP.

                          An effective testing, training, and exercise program is vital to
                          improve the ability of departments and agencies to manage and
                          execute their COOP programs. With an effective testing, training,
                          and exercise program in place, I&A should have confidence that its
                          COOP program is capable of supporting the execution of Essential
                          Functions during a COOP situation.

                          Evaluation

                          During exercises or real emergencies, it is important to record
                          lessons learned so that COOP program evaluation and corrective
                          action can occur. I&A does not have a process in its plan for
                          documenting lessons learned, but is developing an official process
                          for recording lessons learned and corrective action plans.

                          I&A officials describe their process as collecting comments on
                          questionnaires developed by the COOP program managers and
                          then developing an after-action plan within 30 days based on those
                          comments and observations. Then, a series of working group
                          meetings are held to address issues that should be included in a
                          corrective action plan. The corrective action plan prioritizes what
                          actions or issues should be addressed to enhance responses to real-
                          world threats. One program official said that approximately
                          90 percent of the lessons learned from the 2010 Eagle Horizon
                          Exercise were incorporated into the I&A plan for the 2011 exercise.

                          Each division COOP team is responsible for collecting and
                          recording its lessons learned or feedback. Usually, those lessons
                          learned are maintained at the division level, but they can be
                          elevated for inclusion in overall I&A lessons. There is no formal
                          requirement, however, for divisions to share feedback with the
                          I&A COOP program office.

                          I&A uses FEMA’s Continuity Evaluation Tool to assess elements
                          of continuity described in FCD-1 and Federal Continuity
                          Directive-2 (FCD-2), Federal Executive Branch Mission Essential
                          Function and Primary Mission Essential Function Identification
                          and Submission Process (February 2008). 13 The Continuity

13
  FCD-2 implements the requirements of FCD-1, Annex C. It provides guidance and direction to
executive branch departments and agencies for identifying their Mission-Essential Functions and potential
Primary Mission-Essential Functions.



        DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness


                                                 Page 18

                 Evaluation Tool supports the Readiness Report System, which
                 evaluates an organization’s continuity plans and procedures.
                 Exercises are scored by FEMA observers or self-scored by the
                 COOP program manager. I&A retains the evaluations from
                 multiple exercises to establish a baseline for the program.

                 Reconstitution

                 FCD-1 requires departments and agencies to provide reconstitution
                 plans to transition from COOP status to an efficient normal
                 operations status once the threat or disruption has passed.

                 I&A’s COOP plan provides options for reconstitution from all
                 disruption levels and movement from the COOP alternate
                 operating facility or devolution site to the original facility or new
                 operating site. It mentions that within 24 hours of an emergency
                 relocation, the Office of the I&A Chief of Staff and the
                 Information and Knowledge Management Division, in conjunction
                 with the Continuity and Exercise Programs Branch, are to initiate
                 and coordinate operations to salvage, recover, and restore I&A
                 after receiving approval from appropriate law enforcement and
                 emergency services officials. When the Under Secretary for I&A
                 or other authorized official deems that the emergency situation has
                 ended and is unlikely to recur—

                      •	 Operations may continue from the alternate operating
                         facility/emergency relocation site;
                      •	 I&A headquarters may be reconstituted with returning
                         staff; or
                      •	 I&A may begin to reconstitute in another designated
                         location.

                 I&A’s COOP plan requires each division to appoint a representative
                 to the Reconstitution Working Group. This working group is led
                 by the Reconstitution Manager, who oversees the transition. In
                 planning for reconstitution, the Reconstitution Working Group and
                 Reconstitution Manager are tasked with the following:

                      •	 Coordinating with the General Services Administration to
                         obtain office space when I&A’s alternate operating facility
                         is deemed uninhabitable;
                      •	 Developing space allocation and facility requirements;
                      •	 Developing a time-phase plan, listing functions and projects
                         in order of priority for resuming normal operations; and



DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 19
                      •	 Developing procedures, as necessary, for reconstituting
                         I&A staff.

                 However, I&A’s reconstitution process has not been fully tested.
                 As a result, it may not be adequate and will need to be tested to
                 ensure conformity with FCD-1.

                 Human Capital and Resources

                 FCD-1 requires departments and agencies to ensure that human
                 capital strategies for their continuity staff are adaptable to
                 changing circumstances and a variety of emergencies.

                 I&A’s COOP plan includes the required procedures and guidance
                 on human resource issues related to continued operations. I&A
                 has a comprehensive plan that responds to the threats its employees
                 are likely to encounter during an emergency. The plan includes the
                 human factors that need to be considered during a crisis, such as
                 expected roles and responsibilities, staffing, pay, and notification
                 protocols. The plan indicates detailed administrative and
                 personnel services support procedures for deploying I&A staff
                 during an emergency. I&A has addressed telework as an
                 emergency strategy in its COOP plan and program, albeit on a
                 limited basis because of the classified networks and databases
                 needed to complete I&A’s mission. I&A’s draft plan will address
                 the use of existing DHS component field infrastructures and
                 consider other options such as joint or shared facilities.

        Recommendations
                 We recommend that the Under Secretary for Intelligence and
                 Analysis/Chief Intelligence Officer:

                 Recommendation #1: Develop an I&A COOP policy to codify
                 COOP roles and responsibilities of all I&A divisions and offices in
                 maintaining and enhancing COOP plans.

                 Recommendation #2: Include all I&A division-level Essential
                 Functions as annexes in I&A’s overall COOP Plan.

                 Recommendation #3: Use the current emergency relocation site
                 as an interim location for I&A devolution and establish a combined
                 permanent and rotational cadre of I&A personnel to staff the site,




DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 20
                 while continuing to pursue options for establishing an emergency
                 relocation site.

                 Recommendation #4: Incorporate no-notice exercises that
                 include realistic and factually based scenarios to simulate real-
                 world threats, hazards, incidents, and events to gauge and evaluate
                 I&A’s COOP program functionality.

                 Recommendation #5: Conduct hot washes or similar actions to
                 create After Action Reports for all COOP exercises or real-world
                 events when COOP activation is considered or actual execution
                 occurs, and use these reports to enhance COOP program
                 capabilities.

                 We evaluated the consolidated I&A and USCG written comments
                 and have made changes to the report where we deemed
                 appropriate. A summary of the written response to the report
                 recommendations and our analysis of the response follow each
                 recommendation. A copy of Department’s consolidated response,
                 in its entirety, is included as appendix C.

                 In addition, we received technical comments from I&A and USCG
                 and incorporated these comments into the report where appropriate.
                 I&A concurred with Recommendations 1, 2, 4, and 5, and did not
                 concur with Recommendation 3. USCG concurred with
                 Recommendations 6, 7, and 8 (below). We appreciate the
                 comments and contributions made by each entity.

        Management Comments and OIG Analysis
                 Management Response: I&A officials concurred with
                 Recommendation 1. In its response, I&A said it has developed a
                 draft continuity policy to codify the roles and responsibilities of
                 I&A divisions and offices in maintaining and enhancing the
                 program. In addition, I&A’s continuity policy provides
                 documentation of nonoperational program requirements, allowing
                 the updated I&A continuity plan to focus on operational
                 requirements and ensuring that continuity applies to all I&A
                 personnel and not just the Emergency Response Group. I&A
                 expects to publish this policy by September 30, 2012.

                 OIG Analysis: We consider I&A’s actions responsive to the
                 intent of Recommendation 1, which is resolved and open. This




DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 21
                 recommendation will remain open pending our receipt of the
                 updated I&A continuity policy.

                 Management Response: I&A officials concurred with
                 Recommendation 2. In its response, I&A said it is adding the
                 division-level Essential Functions to the existing I&A continuity
                 plan as well as the Essential Functions annex of the draft updated
                 I&A continuity plan. I&A expects to finalize these by
                 September 30, 2012.

                 OIG Analysis: We consider I&A’s actions responsive to the
                 intent of Recommendation 2, which is resolved and open. This
                 recommendation will remain open pending our receipt of the
                 updated I&A Continuity plan and the Essential Functions annex.

                 Management Response: I&A officials did not concur with
                 Recommendation 3. In its response, I&A said that, while this
                 recommendation was valid during OIG fieldwork, because I&A
                 had not identified a devolution site, I&A has since identified a
                 devolution site and is training site personnel to perform the priority
                 I&A Essential Functions and tasks. Rather than invest resources in
                 an interim solution, I&A is focusing on the required equipment and
                 training enhancements for the permanent devolution site. I&A
                 expects to complete the first phase of these enhancements this
                 year. I&A believes these actions address Recommendation 3 and
                 respectfully requests it be closed.

                 OIG Analysis: We consider I&A’s actions responsive to the
                 intent of Recommendation 3, which is resolved and open. In
                 response to I&A technical comments, this recommendation was
                 modified from the draft report and now reads as follows:

                 Revised Recommendation #3: Use the current emergency
                 relocation site as an interim location for I&A devolution and
                 establish a combined permanent and rotational cadre of I&A
                 personnel to staff the site, while continuing to prepare devolution
                 site for its role.

                 This recommendation will remain open pending our receipt of
                 documentation that evidences the plan for the identified devolution
                 site.

                 Management Response: I&A officials concurred with
                 Recommendation 4. In its response, I&A said it will conduct the



DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 22
                 first in a series of annual no-notice COOP exercises to be
                 conducted prior to the end of this calendar year.

                 OIG Analysis: We consider I&A’s actions responsive to the
                 intent of Recommendation 4, which is resolved and open. This
                 recommendation will remain open pending our receipt of
                 documentation that evidences the conduct of a no-notice COOP
                 exercise.

                 Management Response: I&A officials concurred with
                 Recommendation 5. In its response, I&A said that rather than
                 conducting a staged hot wash at the conclusion of exercise Eagle
                 Horizon 2011, as was done for Eagle Horizon 2008, 2009, and
                 2010, I&A required each 2011 participant to complete an
                 observation and a participation form, thereby capturing all I&A
                 Eagle Horizon 2011 participants’ issues in writing. The reports
                 were then analyzed by I&A Continuity and Exercise Programs
                 Branch personnel for trends to include in the DHS-wide hot wash,
                 the I&A Eagle Horizon 2011 Quick Look After Action Report, and
                 the I&A Corrective Actions Database. The Corrective Actions
                 Database then tracks the status of in-process and resolved issues.
                 Further, I&A will reincorporate staged hot washes and the creation
                 of After Action Reports at the conclusion of all future COOP
                 exercises and real-world events. I&A believes these actions
                 address Recommendation 5 and respectfully requests it be closed.

                 OIG Analysis: We consider I&A’s actions responsive to the
                 intent of Recommendation 5, which is resolved and closed. No
                 further reporting concerning this recommendation is necessary.


United States Coast Guard Intelligence and Criminal
Investigations
        For more than 200 years, USCG has safeguarded our Nation’s maritime
        interests in the heartland, in the ports, at sea, and around the globe. It
        protects the maritime economy and the environment, defends our maritime
        borders, saves those in peril at sea, and has the following 11 missions:

             •   Ports, waterways, and coastal security
             •   Drug interdiction
             •   Aids to navigation
             •   Search and rescue
             •   Living marine resources



DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 23
                       •   Marine safety
                       •   Defense readiness
                       •   Migrant interdiction
                       •   Marine environmental protection
                       •   Ice operations
                       •   Other law enforcement

                  USCG CG-2’s mission is to direct, coordinate, and oversee intelligence
                  and investigative operations and activities that support all USCG
                  objectives. 14 It conducts intelligence activities as defined in Executive
                  Order 12333 and as part of the Law Enforcement Intelligence Program. 15
                  CG-2 includes headquarters elements as well as elements colocated with
                  other intelligence departments and agencies (see figure 3).

         Figure 3: CG-2 Organizational Structure




         Source: CG-2.


14
  Hereinafter, USCG CG-2 is referred to as CG-2.
15
  Executive Order 12333 § 1.4 requires that the agencies within the IC shall be in accordance with
applicable U.S. law and with the other provisions of this order in conducting intelligence activities
necessary for the conduct of foreign relations and the protection of the national security of the United
States.



         DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                                   Page 24
COOP Program Evolution
        Due to USCG’s military organizational structure and principles, continuity
        capabilities have always been established in policies and guidance. CG-2
        COOP plan development has been continually updated since USCG’s
        inclusion in the IC in 2001. The plan has evolved from being military
        based to including all requirements in FCD-1. CG-2 leadership and
        program managers have reshaped COOP policies to satisfy USCG, DHS,
        and IC requirements. CG-2 senior leaders understand how continuity
        plans are developed and maintained.

        Program officials define COOP as the ability of CG-2 and its leadership to
        continue performing its Essential Functions in the event that USCG
        headquarters is unsafe, unusable, or inaccessible. CG-2 must establish an
        operational capability and perform Essential Functions within 12 hours of
        COOP activation and sustain those functions for up to 30 days or until
        normal operations resume.

        CG-2 has defined its Essential Functions, participates in government-wide
        and internal COOP exercises, and conducts periodic informational
        meetings to identify its COOP preparedness level. USCG officials said
        they maintain a level of COOP capability that would sustain performance
        of its Essential Functions.

        CG-2 has identified an ERG to ensure continuation of its Essential
        Functions after COOP activation. If normal USCG operations are
        disrupted, the Assistant Commandant or a designated successor will
        activate the CG-2 COOP plan. Members of the ERG will then relocate to
        their respective alternate operations facilities to continue CG-2’s Essential
        Functions.

                 Support and Planning Efforts

                 The COOP program has consistent senior and midlevel leadership
                 support, and senior officials have a stake in ensuring that CG-2
                 programs comply with all Federal regulations and policies. CG-2
                 management has recently dedicated more efforts to building COOP
                 awareness and support because it believes more outreach will
                 improve the accountability, oversight, and visibility of its COOP
                 programs.

                 As of November 2011, CG-2 was using a 2009 plan as guidance.
                 The 2009 plan addresses all the requirements for an effective
                 COOP program. However, prioritization of Essential Functions



DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 25
                 and clearly defined order of succession and delegation of authority
                 need improvement. Prioritization of Essential Functions will help
                 determine where and how resources will be most effective. Order
                 of succession and delegation of authority are two distinct functions,
                 and better delineation is needed in the CG-2 COOP plan. CG-2 is
                 drafting a new plan, which it expects to complete by summer 2012.

                 CG-2’s Office of Plans and Policy Division manage its COOP
                 program. A designated COOP program manager develops,
                 implements, and maintains its COOP plan. CG-2 has trained
                 personnel to develop, maintain, and execute a COOP program
                 within established directives and policies. The CG-2 COOP
                 program manager has other assigned duties. Program officials said
                 that more of the program manager’s time should be dedicated to
                 the COOP program; however, other duties may take priority.

                 The divisions within CG-2 have designated COOP managers who
                 work with COOP program officials to ensure that their plan
                 encompasses all of CG-2. All division-level managers have
                 functional COOP knowledge, with some possessing expert
                 knowledge in maintaining a COOP program. COOP planning
                 occurs at all CG-2 levels and takes into account different USCG
                 work functions, depending on the emergency.

                 Working Group Collaboration

                 CG-2 participates in the same external Office of Director of
                 National Intelligence COOP working groups and DHS internal
                 working groups as I&A. CG-2 provides a different perspective to
                 the working groups because of USCG’s unique mix of missions—
                 military, law enforcement, and intelligence.


Implementing Federal Continuity Directive-1 Requirements
                 Essential Functions

                 Each Essential Function contains Essential Tasks that support each
                 function. CG-2’s Essential Functions are as follows:

                      •	 Protective service operations for the USCG Commandant
                         and Vice Commandant, or alternates
                      •	 Intelligence support to USCG senior leadership and DHS




DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 26
                      •	 Intelligence systems/information technology and related
                         connectivity
                      •	 Physical/personnel security systems and safeguards
                      •	 Intelligence support to area and subordinate field 

                         commanders

                      •	 Investigative operations in support of area and subordinate
                         field commanders
                      •	 Counterintelligence operations
                      •	 IC requirements: Continued support for all necessary IC
                         requirements

                 As a result of changes in processes and new information, CG-2’s
                 2009 COOP plan needs to be updated. COOP personnel said the
                 Essential Functions and annexes need to be updated and
                 prioritized. Because USCG is a multimission organization,
                 prioritization will be challenging, but necessary to execute duties,
                 allocate resources, and perform exercises more effectively. Until
                 the plan is revised, it is difficult to assess which areas require
                 resource modification.

                 Alternate Operating Facilities

                 CG-2 COOP personnel deploy to multiple locations during a
                 COOP event. The specific relocation site will be determined by
                 the Commandant or successor based on the nature of the incident
                 or threat. However, as of November 2011, the location for all
                 scenarios is the Operations Systems Center for the Intelligence
                 Command Center for CG-2 essential staff and USCG Atlantic area
                 headquarters for CG-2 Deputy Commandant and the Vice
                 Commandant. CG-2 offices and members colocated with a hosting
                 organization will work with that organization in support of USCG
                 functions. Also, CG-2 personnel may need to relocate to the
                 Bluemont Emergency Relocation Site with DHS intelligence
                 elements.

                 The Operations Systems Center is a government-owned,
                 contractor-operated facility, which provides full support for the
                 operationally focused USCG automated information systems. The
                 Operations Systems Center has a full-time staff that maintains all
                 its information systems. The center meets FCD-1 requirements for
                 an alternate operating facility, and its configuration supports
                 USCG and its 11 mission areas. The Operations Systems Center
                 has space to accommodate current CG-2 COOP requirements and




DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 27
                           maintains unclassified, SECRET, and TOP SECRET systems
                           needed to continue CG-2’s Essential Functions.

                           Orders of Succession

                           The COOP plan states that order of succession will occur in the
                           absence, disability, or death of the CG-2 Assistant Commandant.
                           Successors to the position of Assistant Commandant will serve
                           until CG-2 is able to return to duty or a successor is chosen by the
                           USCG Commandant.

                           However, the plan does not clearly establish order of succession.
                           No wording or displays illustrate who will succeed the Assistant
                           Commandant or other positions if the person is unavailable to
                           assume command.

                           Delegations of Authority

                           The CG-2 COOP plan includes predelegation of authorities that are
                           in compliance with FCD-1 for making policy determinations and
                           decisions at headquarters and other organizational locations.

                           However, under delegation of authorities, two charts allude to
                           succession of the program management and the delegation of
                           authority for the intelligence advisors. 16 This may lead to
                           confusion over who is the successor for the CG-2 program and
                           who has intelligence advisor authority. USCG headquarters COOP
                           officials said the plan’s succession of command and delegations of
                           authority need to be better defined.

                           Devolution Planning

                           USCG headquarters devolution planning supports overall
                           continuity planning and addresses multiple threats and all-hazards
                           emergency events that may render USCG leadership unavailable or
                           incapable of supporting the execution of its Essential Functions
                           from either USCG headquarter or alternate operating facilities.

                           USCG headquarters’ Disaster and Continuity Division has
                           developed a devolution option for continuity that incorporates
                           succession of command and geographical separation of leadership,
                           and addresses how USCG will conduct Essential Functions during
                           an increased threat situation or in the aftermath of a catastrophic

16
     CG-2 COOP plan, August 2009.



          DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness


                                                  Page 28

                 emergency. When the Commandant or a Continuity of Government
                 Readiness change directs geographic separation of leadership, the
                 ERG will proceed to Atlantic Area Headquarters. When the
                 Commandant is unable to perform his or her duties, the Vice
                 Commandant will assume the office and perform the duties with
                 the support of the ERG and the Atlantic Area staff.

                 Vital Records Program

                 CG-2’s COOP plan identifies each vital record and its current
                 location. The plan states that each record is accessible electronically
                 at the primary facility in addition to being pre-positioned
                 electronically at the alternate operating facilities. To ensure the
                 redundancy and personnel resources needed to perform current
                 missions, USCG requires each CG-2 member to have a “drive
                 away kit.” The kit is to include any paper-based copies of the vital
                 records needed to perform an Essential Function, Essential Task,
                 or any other important function while operating under COOP
                 conditions.

                 However, COOP officials said that the Vital Records Program
                 needs to define responsibilities, checklists, overall duties, and
                 missions better.

                 Interoperable Communications

                 CG-2 has interoperable and redundant systems available to support
                 communication with employees, Department leadership, and other
                 elements and locations during an emergency. CG-2 program
                 officials said that USCG has multiple communication modes at its
                 alternate operating facilities, including unclassified, SECRET, and
                 TOP SECRET levels. The USCG headquarters Intelligence
                 Security Management Division has continuity of communications
                 at the primary workplace and the alternate operating facilities. At
                 the facilities, USCG has full-time site coordinators with staff to
                 ensure that communications are reliable and continuously updated.

                 USCG alternate operating facilities can communicate with all IC
                 members’ systems through the use of the Joint Worldwide
                 Intelligence Communication System and secure telephones and fax
                 machines. CG-2 can receive, coordinate, and deliver information
                 at all classification and security levels. At each alternate operating
                 facility, CG-2 personnel have access to all files and databases to
                 continue Essential Functions.



DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 29
                 CG-2 uses the Government Emergency Telecommunications
                 Service and the Wireless Priority Service to ensure access to
                 telephone and wireless communications to contact and coordinate
                 with personnel in an emergency. All CG-2 personnel have cellular
                 telephones. In some situations, personal pagers can be used in
                 classified spaces.

                 Test, Training, Exercise, and Evaluation Program

                 Testing, training, and exercising COOP capabilities are essential to
                 demonstrate, assess, and improve CG-2’s ability to execute COOP
                 plans. Training familiarizes COOP personnel with the Essential
                 Functions and Essential Tasks they may have to perform in an
                 emergency. Periodic testing also ensures that equipment is
                 available and maintained and procedures are validated.

                 The USCG National Command Center can activate the COOP
                 notification process by using the Alert and Notification automated
                 system. The senior officer available within CG-2 can also use the
                 phone tree method to activate CG-2 COOP.

                 CG-2 participates in several internal and government-wide COOP
                 exercises. Its test, training, and exercise program works in concert
                 with USCG’s overall headquarters plan. The program validates,
                 identifies issues for subsequent correction, and specifies aspects of
                 COOP capabilities, procedures, systems, and facilities used in
                 response to an emergency.

                 CG-2’s continuity training and exercises sufficiently prepare and
                 assess USCG’s ability to conduct its Essential Functions during a
                 significant emergency. However, CG-2 training could benefit
                 from more realistic scenarios and better participation among all
                 divisions. For example, during the National-Level Exercises,
                 CG-2’s primary focuses are testing equipment, communication
                 systems, and access to records. However, CG-2 has not tested full
                 COOP capability, as scenarios have not required complete resource
                 deployment.

                 Evaluation

                 CG-2 has a consistent process for addressing recommendations or
                 gaps identified from lessons learned during exercises. The 2009
                 and 2010 National-Level Exercise reports we reviewed contained
                 sections where the COOP manager identifies action items and
                 recommendations on how to complete those items, and designates


DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 30
                 which staff or group is responsible for each item. The After
                 Action Reports were in the same format; however, they contained
                 no consistent completion schedules.

                 After an exercise, initial comments are collected, with
                 approximately 30 days allowed to draft an After Action Report.
                 Comments come from feedback questions generated by the COOP
                 program managers. A series of working group meetings are held
                 to address issues that should be included in a corrective action
                 plan. The plan attempts to prioritize what should be worked on to
                 respond to real-world threats.

                 CG-2 uses the FEMA Continuity Evaluation Tool to assess
                 elements of continuity outlined in FCD-1 and FCD-2. It also uses
                 reports from DHS headquarters and I&A as part of the internal
                 DHS working groups. Each division COOP team is responsible
                 for collecting and recording its lessons learned or feedback. The
                 lessons learned are incorporated into corrective action plans for
                 CG-2, but can also be elevated for incorporation into overall
                 USCG headquarters and DHS headquarters lessons learned.
                 Although there is no mandate for divisions to share feedback
                 outside USCG, CG-2 has a standard general practice to voluntarily
                 provide feedback and follow up input from COOP lessons learned
                 and After Action Reports to USCG headquarters COOP and
                 planning offices, the Office of the Director of National Intelligence
                 Exercise and Plans Office, I&A, and DHS headquarters.

                 Lessons learned are incorporated into the COOP plan as solutions
                 or enhancements for corrective action. According to CG-2 COOP
                 program officials, when new lessons learned are not in the plan,
                 new guidance for the next exercise or emergency may be issued.

                 Reconstitution

                 The USCG headquarters COOP plan states that the Commanding
                 Officer of the Headquarters Support Command is responsible for
                 reconstitution activities for USCG headquarters, which ensure that
                 adequate facilities are available to house and support the
                 Commandant and headquarters staff in a COOP environment.

                 CG-2 is responsible for coordinating with Headquarters Support
                 Command to ensure that space, systems, records, and security
                 requirements are met at the reconstituted site. When that is not
                 feasible, CG-2 will decide how to house USCG’s Intelligence



DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 31
                 Program assets and resources to ensure that all Essential Functions
                 and Essential Tasks are fulfilled to the extent possible.

                 Human Capital and Resources

                 CG-2’s COOP plan includes the required procedures and guidance
                 on human resource issues related to continued operations. The
                 plan covers human capital resources and addresses the flexibilities
                 that exist to assist managers and employees in an emergency. The
                 plan covers communicating with employees, recall processes, pay
                 and staffing flexibilities, and employee roles and responsibilities.

                 CG-2’s plan also ensures that COOP capabilities take advantage of
                 existing field infrastructures and considers other options, such as
                 telecommuting locations, residential telework, virtual offices, and
                 joint or shared facilities. Individuals who are unable to reach the
                 alternate operating facilities and those who are not mission
                 essential have options in communicating with managers and
                 leadership to continue the USCG mission.

        Recommendations
                 We recommend that the CG-2 Assistant Commandant for
                 Intelligence and Criminal Investigations:

                 Recommendation #6: Determine Essential Function priorities
                 and appropriate resource requirements for each function in the
                 updated CG-2 COOP plan.

                 Recommendation #7: Clearly list and define order of succession
                 and delegations of authority in the updated COOP plan and include
                 the orders of succession in Vital Records, as stated in FCD-1.

                 Recommendation #8: Incorporate no-notice exercises into COOP
                 testing and training and base such exercises on real-world
                 scenarios that are focused on the CG-2 mission.

        Management Comments and OIG Analysis
                 Management Response: USCG officials concurred with
                 Recommendation 6. In its response, USCG said that the corrective
                 action plan will include a new section in the COOP plan that
                 identifies each CG-2 office and/or unit’s Essential Function
                 priorities and the appropriate resource requirements assigned to



DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 32
                 each function. USCG expects to incorporate this recommendation
                 into the updated CG-2 COOP plan by October 1, 2012.

                 OIG Analysis: We consider USCG’s actions responsive to the
                 intent of Recommendation 6, which is resolved and open. This
                 recommendation will remain open pending our receipt of the
                 updated CG-2 COOP plan.

                 Management Response: USCG officials concurred with
                 Recommendation 7. In its response, USCG said that the corrective
                 action plan will include a new section in the COOP plan that
                 identifies each CG-2 office and/or unit’s order of succession and
                 delegations of authority. This section will also include orders of
                 succession in Vital Records, as stated in FCD-1. USCG expects to
                 incorporate this recommendation into the updated CG-2 COOP
                 plan by October 1, 2012.

                 OIG Analysis: We consider USCG’s actions responsive to the
                 intent of Recommendation 7, which is resolved and open. This
                 recommendation will remain open pending our receipt of the
                 updated CG-2 COOP plan.

                 Management Response: USCG officials concurred with
                 Recommendation 8. In its response, USCG said that the corrective
                 action plan will include a new section in the COOP plan that
                 details incorporating no-notice exercises into COOP testing and
                 training, basing such exercises on real-world scenarios that are
                 focused on the CG-2 mission. The results and lessons learned
                 from the exercise will be documented in After Action Reports.
                 USCG expects to incorporate this recommendation into the
                 updated CG-2 COOP plan by October 1, 2012.

                 OIG Analysis: We consider USCG’s actions responsive to the
                 intent of Recommendation 8, which is resolved and open. This
                 recommendation will remain open pending our receipt of the
                 updated CG-2 COOP plan.


Conclusion
        I&A and CG-2 have developed COOP plans that enable personnel to
        conduct Essential Functions at their alternate operating facilities during
        emergencies. Both plans establish alternate work sites, interoperable
        communications, and dedicated resources, enabling Essential Functions to



DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 33
        be performed. I&A and CG-2 program offices have made COOP planning
        a priority and aligned their programs with Federal regulations and
        guidelines.

        With complete COOP plans, I&A and CG-2 are able to support,
        coordinate, and direct homeland security issues. As a result, DHS’ IC
        members are prepared to provide essential services during a significant
        national event.




DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                        Page 34
Appendix A
Purpose, Scope, and Methodology

                       In January 2010, the Assistant Inspectors General for Inspections
                       Working Group of the Intelligence Community Inspectors General
                       Forum agreed to conduct evaluations of COOP and Intelligence
                       Readiness programs within their organizations. These evaluations
                       were to assess COOP for elements and capabilities in each
                       organization that are funded by the National Intelligence Program.

                       Within DHS, I&A and CG-2 are responsible for ensuring the
                       integration and continuity of intelligence to and from the IC during
                       regular operational periods and national emergencies.

                       We assessed the status of the I&A and CG-2 COOP programs that
                       pertain to the IC and determined whether policies, guidance, and
                       processes are effective; whether Essential Functions can be
                       performed during a wide range of emergencies; and the capability
                       for sharing information between DHS and the IC. Specifically, our
                       objectives were to determine whether—

                            •	 The definitions of COOP that I&A and CG-2 use align with
                               the National Continuity Policy;
                            •	 I&A and CG-2 COOP plans adequately address
                               requirements set forth in the National Continuity Policy;
                            •	 COOP training and exercises test capabilities and identify
                               potential areas of improvement; and
                            •	 New planning efforts incorporate lessons learned and
                               corrective actions from prior exercises or actual events.

                       To achieve our objectives, we reviewed documents such as
                       guidance, policies, procedures, and plans, and performed data
                       analysis of information provided by DHS regarding organizational
                       COOP. We interviewed DHS officials who have a role in
                       preparing, planning, maintaining, and implementing COOP, as
                       well as officials from the Federal Bureau of Investigation and
                       Department of State. This allowed us to assess the effectiveness of
                       DHS efforts and the level of collaboration among DHS
                       components, external Federal departments and agencies, and the IC.

                       Our review began in June 2011 and concluded in November 2011.
                       We initiated this review under the authority of the Inspector
                       General Act of 1978, as amended, and according to the Quality
                       Standards for Inspections issued by the President’s Council on
                       Integrity and Efficiency.




      DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                              Page 35
Appendix B
Recommendations

                      We recommend that the Under Secretary for Intelligence and
                      Analysis/Chief Intelligence Officer:

                      Recommendation #1: Develop an I&A COOP policy to codify
                      COOP roles and responsibilities of all I&A divisions and offices in
                      maintaining and enhancing COOP plans.

                      Recommendation #2: Include all I&A division-level Essential
                      Functions as annexes in I&A’s overall COOP Plan.

                      Revised Recommendation #3: Use the current emergency
                      relocation site as an interim location for I&A devolution and
                      establish a combined permanent and rotational cadre of I&A
                      personnel to staff the site, while continuing to prepare devolution
                      site for its role.

                      Recommendation #4: Incorporate no-notice exercises that
                      include realistic and factually based scenarios to simulate real-
                      world threats, hazards, incidents, and events to gauge and evaluate
                      I&A’s COOP program functionality.

                      Recommendation #5: Conduct hot washes or similar actions to
                      create After Action Reports for all COOP exercises or real-world
                      events when COOP activation is considered or actual execution
                      occurs, and use these reports to enhance COOP program
                      capabilities.

                      We recommend that the CG-2 Assistant Commandant for
                      Intelligence and Criminal Investigations:

                      Recommendation #6: Determine Essential Function priorities
                      and appropriate resource requirements for each function in the
                      updated CG-2 COOP plan.

                      Recommendation #7: Clearly list and define order of succession
                      and delegations of authority in the updated COOP plan and include
                      the orders of succession in Vital Records, as stated in FCD-1.

                      Recommendation #8: Incorporate no-notice exercises into COOP
                      testing and training and base such exercises on real-world
                      scenarios that are focused on the CG-2 mission.




     DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                             Page 36
Appendix C
Management Comments to the Draft Report


                               UNCLASSIFIEDIIFOR OFFICIAL USE ONLY
                                                                          U.S. Dtplll1mtnt or Hcmriud Secu rity
                                                                          Washington. DC 20528



                                                                          Homeland
                                                                          Security
                                          APR 1 3 1012

         MEMORANDUM FOR:              Charles K. Edwards


         FROM:


         SUBJECT:                     Draft Report 01 0-10-150-                 HS ' Intelligence
                                      Comm!mity Members ' ContinuiTY o/Operafions and Intelligence
                                      ReadineJs

         The Office of Intelligence and Analysis (I&A) and the US Coast Guard (USCG) appreciate the
         opportunity to review and comment on the Office of Inspector General (OIG) draft reiXlrt 0 10 -
         I O-lSO-ISP-J&A, USCG, Dl-fS' Intelligence Community Members' Continuity a/Operations and
         intelligence Readiness. I&A and USCG CG-2 are actively resolving the issues identified in the
         report.

         For recommendations directed to the Under Secretary for Intelligence and Analysis/C hief
         Intelligence Officer:

         Recommendation #1: D evelop an I&A Continuity of Operations (COOP) policy to codify
         COOP roles and responsibilities of all divisions and offices in maintaining and enhancing COOP
         plans.

         DUS Response: Concur. I&A has developed a draft continuity po licy to codity the roles and
         responsibilities of l&A divisions and offices in maintaining and enhancing the program .
         Additionally, the I&A Contin ui ty Policy provides documentation of non-operational program
         requirements. allowing the updated I&A Continuity PiEm to focus on operational requirements
         and ensuring that continuity applies to alll&A personnel and not just the Emergency Response
         Group . I&A expects to publish this poli cy by September 30, 20 12.

         Recommendation ~2: include aU l&A division-level Essential Functions as annexes in I&A's
         overall COOP Plan.

         DHS Response: Concur. I&A is adding the division-level Essential Functi ons to the existing
         I&A Continuity Plan as well as the Essential Functions Annex of the draft updated I&A
         Continuily Plan. I&A expects tu finalize these by September 30, 2012.




      DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness


                                                    Page 37

Appendix C
Management Comments to the Draft Report


                                UNCLASS IFI EDIIFOR OF FICIAL USE ONLY


         Recommendation #3: Use the current emergency relocation site as an interim location for I&A
         devolution and establish a combined permanent and rotational cadre ofI&A personnel to staff
         the site while continuing to pursue options for establishi ng an emergency relocation site.

         DRS Response: J&A Does Not Concur. While this recommendation was valid during the
         0 10's fieldwork because l&A had not identified a devolution site, I&A has since identified a
         devolution site and is training site personnellO perfonn the priority T&A essential functions and
         tasks. Rather than invest resources in an interim solution, I&A is focusing on the required
         eq uipment and training enhancements for the permanent devolution site. I&A expects to
         complete the first phase of lhese enhancements this year.

         l&A believes th e~'e action~' address the intent oft/,e recommendation and respectfully requests
         this recommendation be closed.

         Recommendation #4: Incorporate no-notice exercises that include realistic and fae luaUy based
         scenarios to simulate real-world threats, hazards, incidents, and events to gauge and evaluate
         I&A's COOP program functionality.

         DRS Response: Concur. I&A will conduct the first in a series of annual no-notice COOP
         exercises to be conductcd prior to the end of this calendar year.

         Recommendation #5: Conduct hOl washes or similar actions to create After Action Reports for
         all COOP exercises or real-world events when COOP activation is considered or actual
         execution occurs, and use these repons to enhance COOP program capabilities.

         DRS Response: Concur. Ratht.7 than conducting a staged hot wash at the conclusion of
         Exercise EAGLE HORIZON (EH) II , as was done ror EH 8, 9, and IO,I&A required each EH
         11 participant to complete an observation and a partici pation form, thereby capturing all I&A EH
         11 participants' issues in writing. The reports were then analyzed by I&A Continuity and
         Exercise Programs Branch persolUlcl for trends to include in the O HS-wide hot wash, the l&A
         EH 11 Quick Look After Action Report, and the I&A Corrective Actions Database. The
         Corrective Actions Database then tracks the status of in-process and resolved issues. Further,
         I&A wi ll reincorporate staged hOI washes and the creation of After Action Reports at the
         conclusion of all future COOP exercises and real-world events.

         I&A believes these actions address th e recommendation and respectfully requests this
         recommendation be closed.

         For recomm endations directed to the CG-2 Assistant Commandant for Intelligence and
         Criminal Investigations:

         Recommendation #6: Detennine Essential Function priorities and appropriate resource
         requirements for each function in the updated CG-2 COOP plan.




                                UNCLASSlFlED/lFOR OFFICIAL USE ONLY




      DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness


                                                      Page 38

Appendix C
Management Comments to the Draft Report


                                UNCLASSIFIED/IFOR OFFICIAL USE ONLY


         USCG CG-2 Response: Concur. The corrective action plan will include a new section in the
         COOP plan that identifies each CO-2 office andlor units essential funct ion priorities and the
         appropriate resource requirements assigned to each function. USCG expects to incorporate this
         recommendation into the updated CG·2 COO P plan by October 1.20 12.

         Recommendation #17: Clearly list Wld define order of succession and delegations of authority in
         the updated COOP plan and include the orders of succession in Vital Records, as stated in FeD·
         I.

         USCG CG -2 Re.lliponse: Concur. The corrective action plan will include a new section in the
         COOP plan that identifies each CG-2 office and/or units' order of succession and delegations of
         authority. This section wiU also include orders of succession in Vital Records, as stated in FCD-
         I. USCG expects to incorporate this recommendation into the updated CG-2 COOP plan by
         October 1, 2012.

         Recommendation #8: Lncorporate no-nolice exercises into COOP testing and training and base
         such exercises on real-world scenarios that arc focused on the CG-2 mission.

         USCG CG-2 Response: Concur. The corrective action plan will include a new section in the
         COOP plan that details incorporating no-notice exercises into COOP testing, and training basing
         such exercises on real-world scenarios that nrc focused on the CG-2 mission. The results and
         lessons learned fro m the exercise will be documented in after-action reports. USCG expects to
         incorporate this recommendation into the updated CG-2 COOP plan by October 1,2012.

         We look forward to continui ng our work with you to ensure all required actions are completed.
         Should you require additional information, please do not hesitate to contact me or have your stafT
         contact Keith Jones at 202-282-9553 or David Plaza at 202-447-3099.




                                UNCLASSIFIEDllfOR OFFICIAL USE ONLY




      DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness


                                                      Page 39

Appendix D
Major Contributors to This Report

                       Marcia Moxey Hodges, Chief Inspector
                       Anthony Crawford, Team Leader
                       Ryan Cassidy, Inspector




      DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                              Page 40
Appendix E
Report Distribution

                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretariat
                       Under Secretary, Office of Intelligence and Analysis
                       Commandant, U.S. Coast Guard
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs
                       Officer for Civil Rights & Civil Liberties
                       Chief Privacy Officer
                       I&A Audit Liaison
                       USCG Audit Liaison

                       Office of the Director of National Intelligence

                       Assistant Inspectors General for Inspections Working Group of the
                       Intelligence Community Inspectors General Forum

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




      DHS’ Intelligence Community Members’ Continuity of Operations and Intelligence Readiness

                                              Page 41
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
